                                          Office of Inspector General
                                          U.S. Small Business Administration


                                                                                         September 2011 Update



  Business Loan Programs                                              caused the straw borrowers, on the promise of future
                                                                      rewards, to submit documents indicating that they owned
                                                                      thriving businesses, when in fact, the businesses only
  Documentation Deficiencies in 7(a) Recovery Act Loans
                                                                      existed on paper. This case was initiated based on a
  On September 30, 2011, the OIG issued the third in a
                                                                      referral from the SBA Utah District Office and is a joint
  series of reports resulting from an ongoing audit of
                                                                      investigation with the Internal Revenue Service, Criminal
  purchased 7(a) Recovery Act loans. This report
                                                                      Investigations Division (IRS-CID).
  identifies documentation deficiencies found in twenty-
  four, or 40 percent, of a sample of sixty 7(a) loans
                                                                      Former Bank Manager Sentenced
  reviewed, which resulted in inappropriate or unsupported
                                                                      On September 29, 2011, a former bank manager was
  loan approvals of approximately $14.2 million. The
                                                                      sentenced to 18 months in prison, 36 months probation,
  documentation in the loan files was inadequate to ensure
                                                                      $199,059.50 in restitution, and a $100 special assessment
  the loans were made to creditworthy borrowers, met
                                                                      fee in U. S. District Court for the District of New Jersey.
  SBA's eligibility criteria, and had adequate evidence of
                                                                      The subject assisted in securing loans for a group of
  equity injection, use of proceeds, or Internal Revenue
                                                                      Korean nationals who were obtaining credit cards and
  Service (IRS) verification. Based on the sample results,
                                                                      loans, including SBA-guaranteed loans, from various
  the OIG projected that at least 1,996 7(a) Recovery Act
                                                                      lending institutions using false identities, documents, and
  loans were not originated and closed in compliance with
                                                                      business names. Specifically, the bank manager falsified
  SBA's policies and procedures, resulting in at least
                                                                      the site visit form on behalf of a sham business with no
  $869.5 million in inappropriate or unsupported loan
                                                                      physical location, thereby causing the bank to issue a
  approvals.
                                                                      $100,000 SBA-guaranteed loan to the sham business.
                                                                      Ten loans totaling approximately $800,000 have been
  Michigan Business Owner Pleads Guilty
                                                                      identified as being brokered by the subject, with current
  On June 21, 2011, a Plymouth, Michigan business owner
                                                                      losses on the loans estimated at approximately $630,000.
  pled guilty to a Superseding Information charging him
                                                                      This is a joint investigation with the IRS-CID, the
  with one count of false statements. The subject applied
                                                                      Englewood New Jersey Police Department, and the
  for and received SBA-guaranteed lines of credit from
                                                                      Bergen County Prosecutor’s Office.
  three separate institutions, totaling approximately
  $110,000. All three loans subsequently defaulted, and
  SBA paid the lenders the guaranteed portions of the loans           Disaster Loans
  totaling approximately $79,000. The subject’s guilty
  plea relates to making a false statement on one of the              Mississippi Woman Sentenced
  three loan applications when he stated that neither he nor          On September 7, 2011, a Mississippi woman was
  his business had previously received an SBA loan. This              sentenced in U.S. District Court for the Southern District
  is a joint investigation with the United States Secret              of Mississippi to 36 months’ probation, $53,790.11 in
  Service.                                                            restitution to the Mississippi Development Authority, and
                                                                      a $100 special assessment. The woman had pled guilty
  Utah Accountant Pleads Guilty                                       in June 2011 after an investigation revealed that she had
  On September 1, 2011, a Sandy, Utah accountant and                  claimed addresses on her applications for Hurricane
  business president pled guilty in U.S. District Court for           Katrina disaster assistance that were not her primary
  the District of Utah to one count of money laundering.              residence in an attempt to fraudulently receive benefits
  The investigation revealed that he and his business                 from the affected agencies. As a result of the
  partner recruited straw borrowers and used the                      investigation, the subject was required to repay the
  borrowers’ names and good credit to obtain four SBA                 remaining balance owed to the SBA on her disaster home
  loans and two regular bank loans totaling $335,000. This            loan of $43,000. This was a joint investigation with the


Monthly Update on Activities of the SBA Office of Inspector General
U.S. Housing and Urban Development (HUD) OIG, the
U.S. Department of Homeland Security (DHS) OIG, and                          Peggy E. Gustafson, Inspector General
the Mississippi State Auditor’s Office.
                                                                           The OIG has established an e-mail address,
Louisiana Church Pastor Indicted                                       oig@sba.gov that we encourage the public to use to
On September 29, 2011, a church pastor was indicted in                  communicate with our office. We welcome your
the Eastern District of Louisiana on one count of mail                   comments concerning this update or other OIG
fraud and one count of theft of government funds. The                  publications. To obtain copies of these documents
investigation revealed that on September 10, 2005, the                                  please contact:
pastor applied for an SBA disaster loan on behalf of the
church at which he was employed at the time. The initial                                   SBA OIG
loan amount of $500,000 was for replacement of                                   409 Third Street SW, 7th Floor
equipment and rebuilding the church, which sustained                                Washington, DC 20416
severe damage and flooding due to Hurricane Katrina.                                 E-mail: oig@sba.gov
The pastor later requested a loan increase due to rising                       Telephone number (202) 205-6586
construction costs for the rebuilding portion. The SBA                           FAX number (202) 205-7382
approved a $463,900 loan increase for a total loan
amount of $963,900. The indictment alleges that instead               Many OIG reports can be found on the OIG’s website
of using the loan funds to reconstruct real estate and to               http://www.sba.gov/office-of-inspector-general
rehabilitate or replace property that was damaged by
Hurricane Katrina, the pastor used the funds to purchase              If you are aware of suspected waste, fraud, or abuse in
two luxury vehicles, two pieces of real estate, certificates                any SBA program, please report it online at
of deposit, designer clothing, fine jewelry, and other                 http://www.sba.gov/office-of-inspector-general/2662
items for his personal use
                                                                       Or call the OIG Hotline toll-free, at (800) 767-0385
Government Contracting & Business
Development
Research Firm Agrees to Pay Civil Fines
On September 16, 2011, a research company agreed to
pay the United States $200,000 to resolve a civil case
regarding its Historically Underutilized Business Zone
(HUBZone) status. The SBA HUBZone program helps
small businesses in urban and rural communities gain
preferential access to federal procurement opportunities.
These preferences go to small businesses that obtain
HUBZone certification by maintaining a "principal
office" in a HUBZone and employing staff who live in a
HUBZone. The firm represented that it qualified under
the HUBZone program to receive government contracts
when it bid on and received three Department of the
Navy contracts. Additionally, the firm submitted claims
for and received payment under these contracts from the
government. The investigation determined that company
was not qualified for the HUBZone program, as their
principal office was not located within a HUBZone at the
time it bid on and received these contracts.




Update on the Activities of the SBA Office of Inspector General   2                                   September 2011
